Report on Audit of the E-rate Program at Southern Westchester Board of Cooperative
Educational Services (SWBOCES)


                                  Table of Contents


                                                                           Page


BACKGROUND INFORMATION                                                        1


AUDIT OBJECTIVES AND SCOPE                                                    2


RESULTS OF AUDIT                                                              3
Report on Audit of the E-rate Program at Southern Westchester Board of Cooperative
Educational Services (SWBOCES)

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General (OIG) at the Federal Communications Commission (FCC) has
oversight responsibilities for the Universal Service Fund (USF) as a federal program of
the FCC. The USF provides affordable access to specified communications services for
schools, libraries, rural health care providers, low-income consumers and companies
serving high-cost areas. On May 7, 1997, the FCC adopted a Universal Service Order
implementing the Telecommunications Act of 1996. Included in this Order was the
Schools and Libraries Funding Mechanism of the USF (hereinafter known as the E-rate
program) in which all eligible schools and libraries can receive discounts from the USF
on eligible communication services ranging from 20 to 90 percent, depending on
economic need and location. The Universal Service Administrative Company (USAC) is
responsible for administering the Fund under the direction of the FCC’s Wireline
Competition Bureau (WCB). The Schools and Libraries Division (SLD) of USAC
administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

Southern Westchester Board of Cooperative Educational Services (SWBOCES) is a New
York state regional public education collaborative. There are 38 boards of cooperative
educational services (BOCES) statewide. SWBOCES was established in 1948 by the
New York State Commissioner of Education and the Board of Regents for the purpose of
providing shared educational and management services to schools and school districts in
its geographic region, which covers 35 school districts serving over 100,000 students in
the southern half of Westchester County.

SWBOCES is comprised of various centers: the Center for Career Services, the Center
for Special Services, the Center for Adult & Community Services, and the Lower Hudson
Regional Information Center (LHRIC). The LHRIC serves three BOCES organizations:
SWBOCES, Putnam/NorthernWestchester BOCES and Rockland BOCES. The LHRIC
provides services to 62 school districts in the three-county area with an enrollment of
over 165,000 students. These services focus on long-range technology planning and
ongoing support for using technology to enhance education, communication, business
management and records management. The LHRIC submitted E-rate forms on behalf of
the 62 school districts.

The following table summarizes the funding commitments and disbursements for FY
1999, the period of our audit.

                                            1

         NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Southern Westchester Board of Cooperative
Educational Services (SWBOCES)

                                   Funds                         Funds
Services                           Committed        Percent      Disbursed         Percent

Internal Connections                $3,773,029         71%       $2,977,174           70%
Internet Access                         90,900          2%                0            0%
Telecommunications                   1,414,560         27%        1,274,667           30%
Total                               $5,278,489        100%       $4,251,841          100%

AUDIT OBJECTIVES AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with a
reasonable level of assurance that beneficiaries are complying with program rules and
that program controls are adequate to prevent fraud, waste and abuse. The objective of
this review was to assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify areas in which to improve the program.

The scope of this audit was designed to test beneficiary compliance with program
requirements contained in Title 47, Part 54 of the Code of Federal Regulations (47 CFR
54.500 through 47 CFR 54.520) which provide that:

•   The beneficiary determines its discount percentage by the percentage of their student
    enrollment that is eligible for a free or reduced price lunch under the national school
    lunch program or a federally-approved alternative mechanism.
•   A process has been established to select the most cost effective service provider
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.
•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted services for
    which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The period of our audit was from July 1, 1999 to June 30, 2000, which comprises
Funding Year 1999 of the E-rate program.

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. As part of the scope of our review, we
obtained an understanding of the specific management controls relevant to the E-rate
program. Because of inherent limitations, a study and evaluation made for the limited
purposes of our review would not necessarily disclose all material weaknesses in the
control structure.


                                             2

           NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Southern Westchester Board of Cooperative
Educational Services (SWBOCES)

RESULTS OF AUDIT

Our audit of the use of E-rate funds at SWBOCES disclosed that the beneficiary was
compliant with the requirements of the program for funding year 1999. We held an exit
conference on March 9, 2002 with the consortium’s representatives and requested their
comments on the results of the audit. They agreed with the results of the audit.




                                          3

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
